      DEPARTMENT OF HEALTH & HUMAN SERVICES                             Office of Inspector General

                                                                       Washington, D.C. 20201




November 22, 2011

TO:           Donald M. Berwick, M.D.
              Administrator
              Centers for Medicare & Medicaid Services


FROM:         /Gloria L. Jarmon/
              Deputy Inspector General for Audit Services


SUBJECT:      Audit of Medicare Part B Administrative Costs for the Period October 1, 2006,
              Through September 30, 2008 at the Wisconsin Physicians Service Insurance
              Corporation (A-05-09-00096)


Attached, for your information, is an advance copy of our final report on Medicare Part B
administrative costs for the period October 1, 2006, through September 30, 2008 at the
Wisconsin Physicians Service Insurance Corporation. We will issue this report to Wisconsin
Physicians Service Insurance Corporation within 5 business days.

If you have any questions or comments about this report, please do not hesitate to call me, or
your staff may contact Brian P. Ritchie, Assistant Inspector General for Centers for Medicare
& Medicaid Audits, at (410) 786-7104 or through email at Brian.Ritchie@oig.hhs.gov or Sheri
Fulcher, Regional Inspector General for Audit Services, at (312) 353-2618 or through email at
Sheri.Fulcher@oig.hhs.gov. Please refer to report number A-05-09-00096.


Attachment
     DEPARTMENT OF HEALTH and HUMAN SERVICES                              Office of Inspector General

                                                                          Office of Audit Services, Region V
                                                                          233 North Michigan Avenue
                                                                          Suite 1360
November 28, 2011                                                         Chicago, IL 60601


Report Number: A-05-09-00096

Jared A. Adair
Senior Vice President, Medicare Division
Wisconsin Physicians Service Insurance Corporation
1717 West Broadway
Madison, WI 53708

Dear Ms. Adair:

Enclosed is the U.S. Department of Health and Human Services (HHS), Office of Inspector
General (OIG), final report entitled Audit of Medicare Part B Administrative Costs for the Period
October 1, 2006, Through September 30, 2008 at the Wisconsin Physicians Service Insurance
Corporation. We will forward a copy of this report to the HHS action official noted on the
following page for review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or
contact Dave Markulin, Audit Manager, at (312) 353-1644 or through email at
David.Markulin@oig.hhs.gov. Please refer to report number A-05-09-00096 in all
correspondence.

                                             Sincerely,



                                             /Sheri L. Fulcher/
                                             Regional Inspector General
                                               for Audit Services


Enclosure
Page 2 – Jared Adair


Direct Reply to HHS Action Official:

Ms. Nanette Foster Reilly
Consortium Administrator
Consortium for Financial Management & Fee for Service Operations
Centers for Medicare & Medicaid Services
601 East 12th Street, Room 235
Kansas City, MO 64106
Department of Health and Human Services
            OFFICE OF
       INSPECTOR GENERAL




  AUDIT OF MEDICARE PART B
 ADMINISTRATIVE COSTS FOR THE
   PERIOD OCTOBER 1, 2006,
 THROUGH SEPTEMBER 30, 2008
                AT THE
WISCONSIN PHYSICIANS SERVICE
  INSURANCE CORPORATION



                       Daniel R. Levinson
                        Inspector General

                        November 2011
                        A-05-09-00096
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

Title XVIII of the Social Security Act established the Medicare program. The Centers for
Medicare & Medicaid Services (CMS) administers the Medicare program through contractors,
including Part B carriers that process and pay Medicare claims submitted by health care
providers. Contracts between CMS and the Medicare contractors define the functions to be
performed and provide for the reimbursement of allowable administrative costs incurred in the
processing of Medicare claims.

The legacy Medicare Part B contract between CMS and Wisconsin Physicians Service Insurance
Corporation (WPS) provides that, when claiming costs, WPS must follow cost reimbursement
principles contained in part 31 of the Federal Acquisition Regulation (FAR) and other applicable
criteria. After the close of each fiscal year (FY), WPS submits to CMS a Final Administrative
Cost Proposal (FACP) reporting Medicare administrative costs. The FACP and supporting data
provide the basis for the CMS contracting officer and contractor to negotiate a final settlement of
allowable administrative costs.

During FYs 2007 and 2008, WPS processed Part B claims in Illinois, Michigan, Minnesota, and
Wisconsin. WPS reported Medicare administrative costs totaling $107,255,186 in its FYs 2007
and 2008 FACPs.

OBJECTIVE

Our objective was to determine whether administrative costs WPS reported on its FACPs for
FYs 2007 and 2008 were reasonable, allowable, and allocable and in compliance with the FAR
and other applicable criteria.

SUMMARY OF FINDINGS

Administrative costs claimed by WPS on its FYs 2007 and 2008 FACPs were generally
reasonable, allowable, and allocable and in compliance with the FAR and other applicable
criteria. However, WPS reported unallowable costs totaling $3,537,431: overstated indirect
costs ($2,646,766); costs for subcontracts ($300,000), equipment ($269,221), outside
professional services ($212,092), and travel ($91,780); miscellaneous costs ($13,752); and other
costs ($3,820).

RECOMMENDATION

We recommend that WPS decrease its FY 2007 FACP by $1,700,698 and decrease its FY 2008
FACP by $1,836,733 to eliminate the unallowable costs identified in this report.




                                                 i
WISCONSIN PHYSICIANS SERVICE INSURANCE CORPORATION COMMENTS

In written comments on our draft report, WPS concurred with our findings regarding full-time
employees, subcontract expenses, furniture and equipment related to another contract, legal
services, investment administrative fees, leased vehicles, membership dues, and lobbying costs.

Regarding our finding that WPS had reported unallowable costs that included an allocation
totaling $80,200 in profit paid to a wholly owned subsidiary, WPS disputed our calculation of
the amount allocated. WPS stated that we “did not consider indirect costs for the subsidiary as a
ratio of all indirect costs to all direct costs, but as a ratio of a subset of indirect costs to all direct
costs resulting in an erroneous indirect rate which overstates the subsidiary profit amount.”

WPS disagreed with our finding regarding home office expenses. WPS asserted that payments
to Medicare providers should have been included as operating revenue in the formula used to
calculate the allocation of residual home office costs to the Medicare line of business. WPS
submitted additional documentation to support its position.

In addition, WPS did not concur with our findings regarding consultant services, meals, airfare
related to another contract, meals and beverages, and gifts. WPS’s comments appear in their
entirety as Appendix C, with the exception of the attachments, which contained proprietary
information.

OFFICE OF INSPECTOR GENERAL RESPONSE

Regarding our calculation of profit incurred by a WPS wholly owned subsidiary and allocated to
the Medicare contract, we maintain that our calculation is accurate. Of the subsidiary’s six
offices, only one office incurred costs chargeable to the Medicare contract. WPS’s statement
that we should have used a ratio of the subsidiary’s total indirect costs to total direct costs would
have overallocated profit to five of the subsidiary’s six offices and underallocated profit to the
office that worked on the Medicare contract. Our calculation properly allocated profit to the
subsidiary’s one office that worked on the Medicare contract.

With regard to WPS’s contention that payments to Medicare providers should be included in the
calculation of residual home office expenses allocated to this contract, we reviewed WPS’s
comments, the Cost Accounting Standards (CAS) requirements, and the contract between WPS
and CMS. We maintain that our interpretation of the CAS requirement is correct.

WPS’s comments on our findings related to consultant services, meals, airfare related to another
contract, meals and beverages, and gifts all referred to inapplicable or inappropriate criteria. For
example, WPS stated that the cost of the gift and gift cards was allowable because they were
earned in accordance with FAR 31.205-6(f)(i), which states that “Awards are paid or accrued
under an agreement entered into in good faith between the contractor and the employees before
the services are rendered or pursuant to an established plan or policy followed by the contractor
so consistently as to imply, in effect, an agreement to make such payment.” We did not question
these costs based on the criteria that WPS cited, but on FAR 31.205-13(b), which states that the
“Costs of gifts are unallowable.”


                                                     ii
After we reviewed WPS’s comments and analyzed the additional documentation provided, we
maintain that our findings and recommendation are correct.




                                            iii
                                                    TABLE OF CONTENTS

                                                                                                                       Page
INTRODUCTION............................................................................................................. 1

     BACKGROUND .......................................................................................................... 1

     OBJECTIVE, SCOPE, AND METHODOLOGY ........................................................ 1
       Objective ................................................................................................................. 1
       Scope ....................................................................................................................... 1
       Methodology ........................................................................................................... 2

FINDINGS AND RECOMMENDATION...................................................................... 2

     UNALLOWABLE COSTS .......................................................................................... 3
       Indirect Costs .......................................................................................................... 3
       Subcontract Expenses ............................................................................................. 4
       Furniture and Equipment Related to Another Contract .......................................... 4
       Outside Professional Services ................................................................................. 4
       Travel ...................................................................................................................... 6
       Miscellaneous ......................................................................................................... 7
       Other ....................................................................................................................... 8

     RECOMMENDATION ................................................................................................ 8

     WISCONSIN PHYSICIANS SERVICE INSURANCE CORPORATION
     COMMENTS ........ ……………………………………………………………………8

    OFFICE OF INSPECTOR GENERAL RESPONSE .................................................... 9


APPENDIXES

     A: WISCONSIN PHYSICIANS SERVICE INSURANCE CORPORATION COSTS
        REPORTED ON THE FINAL ADMINISTRATIVE COST PROPOSAL
        BY COST CLASSIFICATION

     B: OFFICE OF INSPECTOR GENERAL–RECOMMENDED COST
        ADJUSTMENTS

     C: WISCONSIN PHYSICIANS SERVICE INSURANCE CORPORATION
        COMMENTS




                                                                      iv
                                               INTRODUCTION

BACKGROUND

Title XVIII of the Social Security Act established the Medicare program. The Centers for
Medicare & Medicaid Services (CMS) administers the Medicare program through contractors,
including Part B carriers that process and pay Medicare claims submitted by health care
providers. Contracts between CMS and the Medicare contractors define the functions to be
performed and provide for the reimbursement of allowable administrative costs incurred in the
processing of Medicare claims.

The legacy 1 Medicare Part B contract between CMS and Wisconsin Physicians Service
Insurance Corporation (WPS) provides that, when claiming costs, WPS must follow cost
reimbursement principles contained in part 31 of the Federal Acquisition Regulation (FAR) and
other applicable criteria. After the close of each fiscal year (FY), WPS submits to CMS a Final
Administrative Cost Proposal (FACP) reporting Medicare administrative costs. The FACP and
supporting data provide the basis for the CMS contracting officer and contractor to negotiate a
final settlement of allowable administrative costs.

During FYs 2007 and 2008, WPS processed Part B claims in Illinois, Michigan, Minnesota, and
Wisconsin. WPS reported Medicare administrative costs totaling $107,255,186 in its FYs 2007
and 2008 FACPs.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether administrative costs WPS reported on its FACPs for
FYs 2007 and 2008 were reasonable, allowable, and allocable and in compliance with the FAR
and other applicable criteria.

Scope

Our review covered the period October 1, 2006, through September 30, 2008 (FYs 2007 and
2008). For this period, WPS reported Medicare Part B administrative costs totaling
$107,255,186 (Appendix A). This total included pension costs of $5,642,286 that we did not
review because they will be the subject of a separate review.




1
  Section 911 of the Medicare Prescription Drug, Improvement, and Modernization Act of 2003,
P.L. No. 108-173, required CMS to transfer the Medicare Part A and Part B workloads to Medicare administrative
contractors (MAC) between October 2005 and October 2011. On January 7, 2009, CMS awarded the MAC contract
for Jurisdiction 6, which consists of Illinois, Minnesota, and Wisconsin, to one entity and awarded the MAC contract
for Jurisdiction 8, which consists of Michigan and one other State, to another entity. Protests were filed against both
awards. Therefore, CMS has authorized WPS to continue operating as the legacy carrier for Illinois, Minnesota,
Wisconsin, and Michigan until further notice.

                                                          1
We reviewed WPS’s internal controls related to the claiming of costs on the FACPs. We limited
our review of internal controls to those controls necessary to achieve our audit objective.

We conducted fieldwork at WPS’s offices in Madison, Wisconsin.

Methodology

To accomplish our objective, we:

   •   reviewed applicable Federal laws, regulations, and guidelines;

   •   reviewed WPS’s contract with CMS;

   •   reviewed internal and external audit reports, including independent auditor’s reports and
       letters related to WPS’s internal controls for calendar years 2007 and 2008 and prior
       Office of Inspector General (OIG) reports for FYs 2004 through 2008;

   •   interviewed WPS officials regarding the cost accumulation processes for its FACP and
       cost allocation systems;

   •   reconciled line item expenses on the FACP and its supporting reports to WPS’s
       accounting records;

   •   tested costs for reasonableness, allowability, and allocability by reviewing contracts and
       agreements and by judgmentally selecting journal entries, invoices, expense vouchers and
       reports, payroll journals, corporate bonus plans, and personnel records; and

   •   reviewed total compensation paid to WPS’s five highest paid executives.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                          FINDINGS AND RECOMMENDATION

Administrative costs claimed by WPS on its FYs 2007 and 2008 FACPs were generally
reasonable, allowable, and allocable and in compliance with the FAR and other applicable
criteria. However, WPS reported unallowable costs totaling $3,537,431: overstated indirect
costs ($2,646,766); costs for subcontracts ($300,000), equipment ($269,221), outside
professional services ($212,092), and travel ($91,780); miscellaneous costs ($13,752); and other
costs ($3,820) (Appendix B).




                                               2
UNALLOWABLE COSTS

Indirect Costs

Requirements

Pursuant to FAR 31.201-2 (a), “A cost is allowable only when the cost complies with all of the
following requirements: (1) Reasonableness. (2) Allocability. (3) Standards promulgated by the
CAS [cost accounting standards] Board, if applicable, otherwise, generally accepted accounting
principles and practices appropriate to the circumstances. (4) Terms of the contract .…”

Pursuant to FAR 31.203(a), “For contracts subject to full CAS coverage, allocation of indirect
costs shall be based on the applicable provisions.” According to 48 CFR § 9903.201-2(a), full
CAS coverage requires compliance with all of the CAS specified in 48 CFR part 9904.

Pursuant to 48 CFR § 9904.403-50(c)(1), CAS requires residual home office expenses 2 to be
allocated using the three-factor formula, which consists of payroll dollars, operating revenue, and
the average net book value of tangible capital assets and inventories.

Federal regulations at 48 CFR § 9904.403-30(a)(3) state that:

         Operating revenue means amounts accrued or charge[d] to customers, clients, and
         tenants, for the sale of products manufactured or purchased for resale, for
         services, and for rentals of property held primarily for leasing to others. It
         includes both reimbursable costs and fees under cost-type contracts and
         percentage-of-completion sales accruals except that it includes only the fee for
         management contracts under which the contractor acts essentially as an agent of
         the Government in the erection or operation of Government-owned facilities. It
         excludes incidental interest, dividends, royalty, and rental income, and proceeds
         from the sale of assets used in the business.

Home Office Expenses

WPS overstated residual home office expenses by $2,619,258 in its FYs 2007 and 2008 FACPs
because of an incorrect calculation used to allocate these expenses. WPS used the three-factor
formula to allocate residual home office expenses. However, instead of using the revenue it
received from CMS ($85 million in FY 2007 and $149 million in FY 2008) for the operating
revenue portion of the three-factor formula, WPS used the revenue received from CMS plus the
amount of Medicare claim benefits paid to providers ($8 billion in FY 2007 and $42 billion in
FY 2008) in its cost allocation. As a result, the allocation percentages for the operating revenue
factors were overstated, which resulted in WPS overstating residual home office expenses on its
FACPs for FYs 2007 and 2008.



2
 Residual home office expenses are costs incurred by the home office that cannot be identified to a specific
contract, group of contracts, or company segment.

                                                         3
Full-Time Employees

WPS overstated its indirect costs on its FY 2008 FACP by $27,508 because it used an incorrect
full-time employee (FTE) allocation rate. The rate was incorrect because WPS calculated it
using an inaccurate FTE count.

WPS overstated the indirect costs for home office cost expenses and FTEs by $2,646,766 in its
FYs 2007 and 2008 FACPs.

Subcontract Expenses

Pursuant to Appendix B, section II.B, of the Medicare Part B contract, “The contractor shall be
required to provide assurance that each type of cost is allocated only once and only on one basis
to the contract or other cost objective.”

WPS reported unallowable subcontract costs totaling $300,000 in its FY 2008 FACP because it
recorded an accrual twice.

Furniture and Equipment Related to Another Contract

Pursuant to FAR 31.201-4:

       A cost is allocable if it is assignable or chargeable to one or more cost objectives
       on the basis of relative benefits received or other equitable relationship. Subject to
       the foregoing, a cost is allocable to a Government contract if it—(a) Is incurred
       specifically for the contract; (b) Benefits both the contract and other work, and
       can be distributed to them in reasonable proportion to the benefits received; or
       (c) Is necessary to the overall operation of the business, although a direct
       relationship to any particular cost objective cannot be shown.

WPS reported unallowable costs totaling $269,221 in its FY 2008 FACP for the purchase of
office furniture ($159,940) and electronic data processing equipment ($109,281) that was used
for and solely benefited another WPS contract.

Outside Professional Services

Legal Services

Pursuant to FAR 31.205-47(f):

       Costs not covered elsewhere in this subsection are unallowable if incurred in
       connection with— … (8) Protests of Federal Government solicitations or contract
       awards, or the defense against protests of such solicitations or contract awards,
       unless the costs of defending against a protest are incurred pursuant to a written
       request from the cognizant contracting officer.



                                                 4
WPS reported unallowable legal expenses totaling $109,270 in its FYs 2007 and 2008 FACPs
related to its protest of MAC bids. The protest was not requested by the CMS cognizant
contracting officer.

Profit Associated With Related-Party Transactions

Pursuant to Article XV.A of the Medicare Part B contract, “It is the intent of this contract that
the Carrier, in performing its functions under this contract, shall be paid its cost of administration
under the principle of neither profit nor loss to the Carrier ….”

WPS reported unallowable costs on its FYs 2007 and 2008 FACPs that included an allocation
totaling $80,200 in profit paid to a wholly owned subsidiary.

Consultant Services

Pursuant to FAR 31.201–2 (a):

       A cost is allowable only when the cost complies with all of the following
       requirements: (1) Reasonableness. (2) Allocability…. (4) Terms of the contract.
       (5) Any limitations set forth in this subpart.” Moreover, FAR 31.201-2(d)
       requires a contractor to be responsible for “maintaining records, including
       supporting documentation, adequate to demonstrate that costs claimed have been
       incurred, are allocable to the contract, and comply with applicable cost
       principles ….

The cost principles for professional and consultant service costs at FAR 31.205-33(f) provide
that:

       Fees for services rendered are allowable only when supported by evidence of the
       nature and scope of service[s] furnished …. Evidence necessary to determine that
       work performed is proper and does not violate law or regulation shall include—
       (1) Details of all agreements (e.g., work requirements, rate of compensation, and
       nature and amount of other expenses, if any) with the individuals or organizations
       providing the services and details of actual services performed ….

WPS reported unallowable costs totaling $19,482 on its FYs 2007 and 2008 FACPs for
consultant services. Specifically, WPS reported costs totaling $18,268 for a consultant to review
documentation. In addition, WPS reported costs totaling $1,214 for a second consultant who
provided financial and estate services to a senior vice president. WPS did not provide adequate
documentation of its agreements with the consultants (e.g., description of the services, estimate
of time required, and rate of compensation) to support that the costs were allocable to Medicare.
In the absence of such support, the costs were unallowable.




                                                  5
Investment Administrative Fees

Pursuant to FAR 31.201-4:

         A cost is allocable if it is assignable or chargeable to one or more cost objectives
         on the basis of relative benefits received or other equitable relationship. Subject
         to the foregoing, a cost is allocable to a Government contract if it—(a) Is incurred
         specifically for the contract; (b) Benefits both the contract and other work, and
         can be distributed to them in reasonable proportion to the benefits received; or
         (c) Is necessary to the overall operation of the business, although a direct
         relationship to any particular cost objective cannot be shown.

WPS reported unallowable costs totaling $3,140 in its FYs 2007 and 2008 FACPs for investment
administrative fees related to a 401K plan. The fees were associated with employees who did
not work in the Medicare line of business and should not have been allocated to the contract.

WPS overstated outside professional services related to legal services, related-party transactions,
consultant services, and investment administrative fees totaling $212,092 in its FYs 2007 and
2008 FACPs.

Travel

Leased Vehicles

Pursuant to FAR 31.205-6(m)(2), “That portion of the cost of company-furnished automobiles
that relates to personal use by employees (including transportation to and from work) is
unallowable regardless of whether the cost is reported as taxable income to the employees (see
31.205-46(d)).”

WPS reported unallowable costs totaling $85,513 on its FYs 2007 and 2008 FACPs related to the
personal use of company-furnished leased vehicles.

Meals

FAR 31.205-14 states, “Costs of amusement, diversions, social activities, and any directly
associated costs such as tickets to shows or sports events, meals, lodging, rentals, transportation,
and gratuities are unallowable. Costs made specifically unallowable under this cost principle are
not allowable under any other cost principle….”

WPS reported unallowable costs totaling $4,021 to its FYs 2007 and 2008 FACPs for meals
provided during company Christmas parties in December 2006 and 2007 totaling $3,703 and the
cost of personal meals provided to executives who were not on travel totaling $318.




                                                  6
Airfare Related to Another Contract

Pursuant to FAR 31.201-4:

        A cost is allocable if it is assignable or chargeable to one or more cost objectives
        on the basis of relative benefits received or other equitable relationship. Subject
        to the foregoing, a cost is allocable if it—(a) Is incurred specifically for the
        contract; (b) Benefits both the contract and other work, and can be distributed to
        them in reasonable proportion to the benefits received; or (c) Is necessary to the
        overall operation of the business, although a direct relationship to any particular
        cost objective cannot be shown.

WPS reported unallowable costs totaling $2,246 in its FY 2007 FACP for airfare that was
purchased in connection with a trip that was for the sole benefit of one of WPS’s other contracts.

WPS overstated travel costs related to leased vehicles, meals, and airfare costs by $91,780 in its
FYs 2007 and 2008 FACPs.

Miscellaneous

Meals and Beverages

Pursuant to FAR 31.205-14, “Costs of amusement, diversions, social activities, and any directly
associated costs such as tickets to shows or sports events, meals, lodging, rentals, transportation,
and gratuities are unallowable. Costs made specifically unallowable under this cost principle are
not allowable under any other cost principle….”

WPS reported unallowable costs totaling $7,456 in its FYs 2007 and 2008 FACPs for food and
beverages served during company social events.

Gifts

Pursuant to FAR 31.205-13(b), “Costs of gifts are unallowable.”

WPS reported unallowable costs totaling $6,296 in its FYs 2007 and 2008 FACPs for gifts and
gift cards provided to employees at social events.

WPS overstated miscellaneous costs related to meals and beverages and gifts totaling $13,752 in
its FYs 2007 and 2008 FACPs.




                                                  7
Other

Membership Dues

Pursuant to FAR 31.205-43(a), costs associated with “[m]emberships in trade, business,
technical, and professional organizations” are allowable. However, FAR 31.205-14 provides
that:

        Costs of amusement, diversions, social activities, and any directly associated costs
        such as tickets to shows or sports events, meals, lodging, rentals, transportation,
        and gratuities are unallowable. Costs made specifically unallowable under this
        cost principle are not allowable under any other cost principle. Costs of
        membership in social, dining, or country clubs or other organizations having the
        same purpose are also unallowable, regardless of whether the cost is reported as
        taxable income to the employee.

WPS reported unallowable costs totaling $2,405 in its FYs 2007 and 2008 FACPs for
membership dues to a club in which executives attended social events.

Lobbying

Pursuant to FAR 31.205-22(a)(1), “Costs associated with the following activities are
unallowable: (1) Attempts to influence the outcomes of any Federal, State, or local election,
referendum, initiative, or similar procedure, through in kind or cash contributions, endorsements,
publicity, or similar activities ….”

We identified paid invoices for business association membership fees. These itemized invoices
indicated that $1,415 of the invoiced amounts covered lobbying fees. WPS reported this
unallowable amount in its FYs 2007 and 2008 FACPs.

WPS overstated other costs related to membership dues and lobbying totaling $3,820 in its
FYs 2007 and 2008 FACPs.

RECOMMENDATION

We recommend that WPS decrease its FY 2007 FACP by $1,700,698 and decrease its FY 2008
FACP by $1,836,733 to eliminate the unallowable costs identified in this report.

WISCONSIN PHYSICIANS SERVICE INSURANCE CORPORATION COMMENTS

In written comments on our draft report, WPS concurred with our findings regarding full-time
employees, subcontract expenses, furniture and equipment related to another contract, legal
services, investment administrative fees, leased vehicles, membership dues, and lobbying costs.

Regarding our finding that it had reported unallowable costs that included an allocation totaling
$80,200 in profit paid to a wholly owned subsidiary, WPS disputed our calculation of the amount

                                                 8
allocated. WPS stated that we “did not consider indirect costs for the subsidiary as a ratio of all
indirect costs to all direct costs, but as a ratio of a subset of indirect costs to all direct costs
resulting in an erroneous indirect rate which overstates the subsidiary profit amount.”

WPS disagreed with our finding regarding home office expenses. WPS stated that, originally, it
had allocated its residual home office expenses on the basis of total administrative expense by
segment; however, in 2006, WPS changed its allocation to the CAS three-factor formula in
response to a CMS directive. WPS asserted that, notwithstanding the change in allocation
methods, payments to Medicare providers should have been included as operating revenue in the
three-factor formula, which is used to calculate the allocation of residual home office costs to the
Medicare line of business. WPS alleged that to do otherwise would be inequitable and overstate
the business volume in its other lines of business. WPS submitted additional documentation to
support its position.

In addition, WPS did not concur with our findings regarding consultant services, meals, airfare
related to another contract, meals and beverages, and gifts. WPS’s comments appear in their
entirety as Appendix C with the exception of the attachments, which contained proprietary
information.

OFFICE OF INSPECTOR GENERAL RESPONSE

Regarding our calculation of profit incurred by a WPS wholly owned subsidiary and allocated to
the Medicare contract, we maintain that our calculation is accurate. Of the subsidiary’s six
offices, only one office incurred costs chargeable to the Medicare contract. WPS’s statement
that we should have used a ratio of the subsidiary’s total indirect costs to total direct costs would
have overallocated profit to five of the subsidiary’s six offices and underallocated profit to the
office that worked on the Medicare contract. Our calculation properly allocated profit to the
subsidiary’s one office that worked on the Medicare contract.

With regard to WPS’ contention that payments to Medicare providers should be included in the
calculation of residual home office expenses allocated to this contract, we reviewed WPS’s
comments, the CAS requirements, and the contract between WPS and CMS. We maintain that
our interpretation of the CAS requirement is correct. Additional support for excluding payments
to Medicare providers from operating revenues as a portion of the calculation of allocable
residual home office expenses can be found in the contract between WPS and CMS. According
to the terms of that contract, “any costs which are properly chargeable by a provider of services
as benefit costs in accordance with the Act and Regulations, shall not be chargeable to this
contract as administrative costs” (Article XV, “Types of Costs Allowable for Administration of
this Contract, D”). That contract remained in effect after WPS’s transition to the three-factor
formula, and, in that contract, WPS agreed to exclude payments to Medicare providers from its
administrative costs. FAR 31.201-2(a)(4) provides that a cost is allowable only when the cost
complies with all of the terms of the contract. To comply with the terms of the contract, WPS
must exclude payments to Medicare providers from its operating revenue for purposes of
calculating residual home office expenses.

WPS’s comments on our findings related to consultant services, meals, airfare related to another
contract, meals and beverages, and gifts all referred to inapplicable or inappropriate criteria. For
                                                  9
example, WPS stated that the cost of the gift and gift cards was allowable because they were
earned in accordance with FAR 31.205-6(f)(i), which states that “Awards are paid or accrued
under an agreement entered into in good faith between the contractor and the employees before
the services are rendered or pursuant to an established plan or policy followed by the contractor
so consistently as to imply, in effect, an agreement to make such payment.” We did not question
these costs based on the criteria that WPS cited, but on FAR 31.205-13(b), which states that the
“Costs of gifts are unallowable.”

After we reviewed WPS’s comments and analyzed the additional documentation provided, we
maintain that our findings and recommendation are correct.




                                               10
APPENDIXES
            APPENDIX A: WISCONSIN PHYSICIANS SERVICE INSURANCE
                CORPORATION COSTS REPORTED ON THE FINAL
           ADMINISTRATIVE COST PROPOSAL BY COST CLASSIFICATION

Cost Category                                       FY 2007 1      FY 2008 2            Total
Salaries/Wages                                      $34,345,264    $23,180,690        $57,525,954
Fringe Benefits                                      16,776,994     10,494,903         27,271,897
Facilities or Occupancy                               4,509,376      1,048,235          5,557,611
Electronic Data Processing
Equipment                                              4,650,456      1,243,162         5,893,618
Subcontractors                                        12,151,640     11,085,920        23,237,560
Outside Professional Services                          8,102,978     15,753,370        23,856,348
Telephone and Telegraph                                   11,604        227,879           239,483
Postage and Express                                    2,216,597      2,415,288         4,631,885
Furniture and Equipment                                        0      3,465,947         3,465,947
Materials and Supplies                                   735,247      1,466,157         2,201,404
Travel                                                   502,864        494,703           997,567
Return on Investment 3                                         0              0                 0
Miscellaneous                                            221,118         90,379           311,497
Other                                                  1,575,954        129,757         1,705,711
 Subtotal                                             85,800,092     71,096,390       156,896,482
Other Adjustments (Credits)                         (25,401,777)   (24,239,519)      (49,641,296)
Total Cost                                            60,398,315     46,856,871       107,255,186
Forward Funding 4                                              0              0                 0
 Total Costs Claimed on Final
 Administrative Cost Proposal                         60,398,315     46,856,871       107,255,186
OIG Recommended Adjustments 5                        (1,700,698)    (1,836,733)        (3,537,431)
 Total Adjusted Costs                               $58,697,617    $45,020,138       $103,717,755


FY = fiscal year
OIG = Office of Inspector General
WPS = Wisconsin Physicians Service Insurance Corporation




1
    The FY 2007 Final Administrative Cost Proposal was based on Supplement No. 07.
2
    The FY 2008 Final Administrative Cost Proposal was based on Supplement No. 03.
3
    WPS did not report any return on investment costs.
4
    WPS did not report any forward funding costs.
5
    See Appendix B.
                       APPENDIX B: OFFICE OF
         INSPECTOR GENERAL–RECOMMENDED COST ADJUSTMENTS

                                                           Total Cost
Cost Category                    FY 2007      FY 2008     Adjustments
Indirect Costs                  $1,483,382   $1,163,384    $2,646,766
Subcontracts                             0      300,000       300,000
Furniture and Equipment                  0      269,221       269,221
Outside Professional Services      160,935       51,157       212,092
Travel                              50,771       41,009        91,780
Miscellaneous                        4,286        9,466        13,752
Other                                1,324        2,496          3,820
 Total OIG-Recommended
 Adjustments                    $1,700,698   $1,836,733    $3,537,431
                          APPENDIX C: WISCONSIN PHYSICIANS SERVICE INSURANCE 

                          CORPORA TION COMMENTS                      Page 1 of 9 




                                                July 27,2011




Mr. James C. Cox
Regional Inspector General for Audit Services
HHS, Office of Audit Services
233 North Michigan Avenue, Suite 1360
Chicago, IL 60601

                                                RE: Draft OIG Report Number A-05-09-00096
                                                    Contract No. HCFA 87-032-2

Dear Mr. Cox: 


In a letter dated June 28, 2011, we received the Office of Inspector General's draft report entitled 

Audit of Medicare Part-B Administrative Costs for the Period October 1, 2006, Through September 

30, 2008 at Wisconsin Physicians Service Insurance Corporation. In that letter, you requested that we 

respond to you and include a statement of concurrence or non-concurrence for each recommendation. 

WPS has included these statements below in the same order that the recommendations appear in the 

draft report. 


We note that the contract is not subject to the Cost Accounting Standards (CAS), except as referenced 

in Appendix B (10-87) to the contract. 


Home Office Expenses 

WPS does not concur with the OIG recommendation to reduce its costs by $2,619,258 related to the 

revenue components used to determine the allocation of residual home office overhead under the 

three factor formula set forth in CAS 403. Although the referenced contract is not subject to CAS, 

WPS changed its allocation methodology to the CAS formula in response to a CMS directive in 2006, 

prior to WPS ' first Medicare Administration Contract (MAC) proposal submission. 


OIG references FAR 3l.20 1-2(a), "A cost is allowable only when the cost complies with all of the 

following requirements : (1) Reasonableness. (2) Allocability. (3) Standards promulgated by the CAS 

Board, if applicable, otherwise, generally accepted accounting principles and practices appropriate to 

the circumstances. (4) Terms of the contract .. .". There are no generally accepted accounting 

principles relative to the allocation of home office residual expense. Accordingly, under the terms of 

the contract, any reasonable allocating method should be appropriate. See Contract, Article XII. 


While WPS' Medicare Legacy contract is not subject to CAS, WPS has had other contracts that are 

and have been subject to CAS since the early 1990's. These contracts have been audited by DCAA, 

WPS' Cognizant Federal Audit Agency, including CAS 403 audits, Business Proposal audits, and 

Disclosure Statement audits for purposes of WPS' TRICARE and Medicare MAC contracts, which 

are subject to full CAS. The method of arriving at the component parts of the 3-factor formula 





                  Wisconsin Physicians Service Insurance Corporation serving as a CMS Medicare contractor
                  P.O. Box 1787 • Madison, WI 53701 • Phone 608-221-4711
Page 2                                                                                    Page 2 of9
Mr. James C. Cox
July 27,2011

including the revenue component was specifically reviewed by DCAA and DCAA has never taken
exception to WPS' allocation methodology for residual home office overhead since the 2006
application of the three factor formula.

WPS' allocation of residual home office overhead expense has been calculated to be compliant with
FAR 31.203. The allocation has been reviewed by DCAA and OIG previously, and has been found to
be reasonable and allowable. While the subject Medicare Part B legacy contract is not subject to
CAS, WPS' allocation of residual home office overhead has been based on CAS 403 since 2006, has
been reviewed by DCAA, and has been found to be CAS compliant.

Provided below is a more detailed explanation supporting WPS allocation calculation for residual
home office overhead using the three factor formula:

WPS disagrees with OIG's contention that WPS' methodology for allocating home office expenses
deviates from CAS 403 and the three factor formula (per FAR 31.203). To the contrary, WPS
believes its allocation methodology for home office expenses is fully compliant with the CAS 403
three factor formula. In response to direction from CMS, WPS changed its methodology for
allocating home office expenses to the CAS 403 three factor formula in 2006. WPS has disclosed this
allocation methodology for home office expenses in its CAS required Home Office Disclosure
Statement. On multiple occasions, DCAA, WPS' Cognizant Federal Audit Agency (CF AA), has
reviewed WPS' home office allocation methodology and has deemed it reasonable and adequate
(please see attachments 1&2 - DCAA audit of three factor formula). Provided below is a chronology
detailing the history of WPS' home office allocation methodology. It demonstrates that WPS
implemented its current methodology in response to direction from CMS, is compliant with CAS 403,
and has been deemed reasonable and adequate by DCAA.

WPS has held numerous CAS covered contracts on a continuous basis with DoD since 1990, under
the OCHAMPUS and TRICARE Managed Care Support programs. In accordance with CAS and the
FAR, DoD was designated the Cognizant Federal Agency Official (CFAO) for WPS' TRICARE
segment and WPS' home office expenses and has been responsible for administering the Cost
Accounting Standards for all of WPS' CAS contracts (See FAR 52.230-6 "Administration of Cost
Accounting Standards"). This single point of control within the government for CAS administration
is required, because the disclosed practices of a contractor must be consistently applied across all of
its CAS covered contracts (See FAR 52.230-2). Having different agencies require different cost
accounting practices under different contracts would violate the consistency requirements of CAS.

Since at least 1990, WPS had allocated CAS 403 home office residual expenses on the basis of total
administrative expense by segment. This allocation methodology was understood and accepted by
both TMA and DCAA. In 2005, CMS directed WPS to revise its allocation methodology for CAS
403 residual home office expenses to the CAS 403 three factor formula, prior to submission of a
MAC proposal.

In 2005, CMS held a conference in Baltimore, prior to the award of the first MAC contract, which
addressed the requirement that all contractors going forward would be subject to CAS. This
conference explained CAS requirements, including Disclosure Statements, established accounting
Page 3                                                                                           Page 3 of9
Mr. James C. Cox
July 27,2011

practices, Cognizant Federal Audit agencies, and home office expenses (Part 8 of the Disclosure
Statement). CMS also explained that it would require use of the CAS 403 three factor formula for
allocation of residual home office expenses. Unlike other MAC contractors, WPS, under its
TRICARE contracts with the DoD, was already subject to CAS and WPS maintained a CAS
compliant home office allocation. The use of total administrative expense as the allocation base for
the CAS 403 residual pool was identified in WPS' DCAA approved CAS Disclosure Statement for
parts one through eight. DCAA was WPS' Cognizant Federal Audit Agency (for Parts 1-7 TRICARE
Segment and Part 8 Home Office Expenses). At the time of the CMS conference, although not based
on the three factor formula, WPS' home office allocation structure had been reviewed and approved
as CAS-compliant by both the DoD appointed CFAO and DCAA.

CAS requires the application of home office expenses consistently across all government contracts,
regardless of segment. CMS requested the change to the CAS 403 three factor formula for allocation
of residual home office expenses. For calendar year 2006, prior to the award of its first MAC
contract, WPS revised its allocation methodology for residual home office expense to the three factor
formula and updated its Disclosure Statements accordingly. In accordance with FAR 52.230-6, WPS
notified the CFAO of the change through the submission of a revised Disclosure Statement. DCAA,
as the CFAA, subsequently reviewed WPS' revised three factor methodology for allocation of
residual home office expense, and deemed it reasonable and adequate. For multiple audits, on both
Medicare and TRICARE contracts, DCAA and the HHS OIG (Medicare FY 2006) have audited
WPS' allocation of home office expense and have found no significant issues related to the
requirements of CAS 403. In fact, contrary to the ~IG's present assertion, DCAA explicitly found
inclusion of benefits payments in revenue as a reimbursed cost to be proper under CAS 403. (See
attachments 1&2-DCAA audit of three factor formula) .

OIG is specifically questioning the "Revenue" component of the three factor formula. In accordance
with CAS, WPS' definition of "revenue" under the formula is an accurate measure of the total activity
of each segment in relation to the other segments and has been accepted by DCAA in every audit
covering this issue since 2006.

CAS 9904.403-30(3) defines "operating revenue" as including reimbursable costs and fees under
cost-type contracts. WPS' Medicare segment pays both administrative and claim payments out of
WPS accounts and is separately reimbursed by CMS . WPS ' TRICARE segment also makes claims
payments out ofWPS accounts and is separately reimbursed for those payments. CAS 403 states that
such reimbursable costs are to be included in operating revenue under the three factor formula. WPS
has accounted for the payments of claims for Medicare and TRICARE as a cost, and the
corresponding reimbursement as revenue, on its general ledger since the inception of these business
segments over 40 years ago. In addition, DCAA explicitly found benefits payments to be
reimbursable costs properly included in revenue under the CAS 403 three factor formula. (See
Attachments 1 & 2, DCAA audit ofthree factor formula). 1

~IG's position is that inclusion of the claims paid as revenue, for Medicare and TRICARE, has the
effect of over-allocating home office expenditures to government contracts. To the contrary, WPS'
position is that the exclusion of the reimbursement for claim payments as revenue would inequitably
and inappropriately understate the allocation of residual home office expense to WPS' Medicare and



1 Office   of Inspector General N ote-The attachments were removed because it is proprietary information.
Page 4                                                                                    Page 4 of9
Mr. James C. Cox
July 27,2011

TRICARE segments that perform administrative services for claims payment contracts. Exclusion
would also contravene WPS' DCAA-approved CAS Disclosure Statements, and the basic purpose of
CAS 403 that "beneficial or causal relationships" between home office expenses and receiving
segments should be the basis for the allocation method selected. An allocation method that distorts
the relative benefits received by WPS' various segments would be inconsistent with the requirements
of the CAS.

CAS9904.403-50( c)(1) identifies "three broad areas of management concern" used in the allocation
fonnula: the employees of the organization, the business volume, and the capital invested in the
organization. There can be no question that WPS has, is and will always consider its fiduciary
responsibility, related to the payment of claims for our government segments, equal to that of WPS'
commercial segment. Aside from WPS' fiduciary duties, WPS has material positive incentives, error
penalties, and various award fees, related to the accuracy of claim payments for its two government
segments. These financial incentives ensure that WPS approaches the payment of claims equally
across its various business segments, whether they are made on an administrative services basis or an
insured basis. The appropriate, reasonable and consistent position is to consider business volume on
the basis of revenue that covers both administrative and claim costs equally for all segments,
government and commercial. OIG's position would result in over-allocation of home office expenses
to the commercial side of the business and distortion of the actual costs benefitting WPS' various
business segments.

Claim payments typically run approximately eight times higher than the corresponding administrative
costs necessary to process the claim. OIG's position would mean that, from a business volume
perspective, the WPS commercial risk volume would count eight times that of its Medicare and
TRICARE volume. This approach would lead to an umeasonable result and would be inconsistent
with the intent of the three factor fonnula to properly reflect the relative business volume among
segments and to achieve an overall allocation base representative of the total activity across all
business segments. While WPS' commercial segment processes approximately 6 million claims
annually, the Medicare and TRICARE segments process over 150 million claims and 60 million
claims, respectively. Yet under OIG's approach, from a business volume perspective, WPS'
commercial business segment would be considered over three times the size of either government
segment.

To further illustrate this point, when comparing the current three factor fonnula calculation used by
WPS to the methodology used by WPS prior to 2006 (i.e., administrative expenses by business
segment), the allocation rates are materially comparable. Prior to CMS requiring WPS' use of the
three factor fonnula in 2006 under the MAC contracts, OIG had audited over forty years of Medicare
costs and had never taken exception to WPS' allocation of home office residual expenses. In
contrast, using OIG's approach to the three factor fonnula calculation would lead to a material change
in allocation results that would not be representative of the actual relative business activity across
WPS' government and commercial business segments.

WPS top management is deeply involved in business operations across all of the company's
segments. To illustrate the need for WPS' top management involvement, several examples of contract
deliverables are provided. Regulatory requirements such as DIACAP, Service Contract Act
Page 5                                                                                            Page 5 of9
Mr. James C. Cox
July 27,2011

compliance, preparation of proposals in response to RFP's, FISMA compliance, Certification
Package for Internal Controls (CPIC), management of government audits including SAS 70 (in 2010
alone, the Medicare Business Segment has had 12 external audits), and contract modifications (just to
name a few) command a greater proportional share of WPS' top management time than does WPS'
commercial segment.

To summarize, there is no basis for challenging WPS' DCAA-approved allocation methodology for
residual horne office overhead under the CAS 403 three factor formula. ~IG's position would lead to
a result contrary to the basic intent of the three factor formula by distorting the allocation of these
costs to WPS' vatious business segments. WPS' application of the three factor formula has been
fully disclosed to the CFAO and repeatedly approved in government audits. And, there is no basis for
excluding claim payment reimbursement from operating revenue in applying the three factor formula.

Full Time Employees
WPS concurs with the OIG recommendation to reduce its costs by $27,508 related to using an
incorrect FTE allocation caused by using an incorrect formula to calculate the FTE count. WPS is
reviewing the allocation formulas on a quarterly basis to provide reasonable assurance that there are
no errors going forward.

Subcontract Expenses
WPS concurs with the OIG recommendation to reduce its costs by $300,000 due to recording an
accrual twice. WPS has in fact returned the $300,000 in question to CMS through its revised FACP
supplemental number 05 dated February 1, 2010. WPS accruals are systematically reversed in the
following month to prevent this from happening in the future .

Furniture and Equipment Related to Another Contract
WPS concurs with the OIG recommendation to reduce its costs by $269,221 for equipment that
benefited another WPS contract. WPS now charges furniture and equipment through an indirect rate
preventing a direct charge to the wrong contract.

Legal Services
WPS concurs with the OIG recommendation to reduce its costs by $109,270 for legal expenses for
protest fees relating to a Medicare Administrative Contractor bid which were not requested by the
contracting officer. WPS will include future protest fees in its protest cost center, which are not
claimed for reimbursement under this contract.

Profit Associated With Related-Party Transactions
WPS does not concur with the OIG recommendation to reduce its costs by $80,200 (Part-B portion)
related to profit paid to a wholly owned subsidiary. The OIG overstated the subsidiary's profit by
$78,162 (Part-A and Part-B combined). The correct profit charged to Medicare is $28,190 (Part-A
and Part-B combined), $21,030 (Part-B portion) of which is related to Part B. The OIG calculation
did not consider indirect costs for the subsidiary as a ratio of all indirect costs to all direct costs, but as
a ratio of a subset of indirect costs to all direct costs resulting in an erroneous indirect rate which
overstates the subsidiary profit amount.
Page 6                                                                                        Page 6 of9
Mr. James C. Cox
July 27,2011

WPS agrees to reduce its costs claimed by $21,030 (Part-B portion) as profit paid to a wholly owned
subsidiary. When the WPS fiscal year end results are final, WPS evaluates the subsidiary profit or
loss and adjusts its costs claimed as appropriate.

Consultant Services
WPS does not concur with the OIG recommendation to reduce its costs by $19,482 for consulting
services. The consultant services were performed under two oral contract agreements. The OIG was
provided the invoice copy backup showing approval of the services provided, hours worked, and rate
of compensation. The total amounts paid to these consultants in 2007 and 2008 of $24,535 and
$4,011 is much less than the cost of employing individuals with similar qualifications. Therefore
these costs are allowable under FAR 31.205-33 (d) ,:

        In determining the allowability of costs (including retainer fees) in a particular case, no
       single factor or any special combination offactors is necessarily determinative. However, the
       contracting officer shall consider the following factors, among others:

       (1) The nature and scope ofthe service rendered in relation to the service required.

       (2) The necessity ofcontracting for the service, considering the contractor's capability in the
       particular area.

       (3) The past pattern ofacquiring such services and their costs, particularly in the years prior
       to the award of Government contracts.

       (4) The impact ofGovernment contracts on the contractor's business.

       (5) Whether the proportion ofGovernment work to the contractor 's total business is such as to
       influence the contractor in favor ofincurring the cost, particularly when the services rendered
       are not ofa continuing nature and have little relationship to work under Government
       contracts.

       (6) Whether the service can be performed more economically by employment rather than by
       contracting.

       (7) The qualifications ofthe individual or concern rendering the service and the customary fee
       charged, especially on non-Government contracts.

       (8) Adequacy ofthe contractual agreement for the service (e.g., description ofthe service,
       estimate oftime required, rate ofcompensation, termination provisions).

Investment Administrative Fees
WPS concurs with the OIG recommendation to reduce its costs by $3,140 for investment
administrative fees related to a 401 (k) plan. The employees in the plan who are not part of the
Medicare division will have their 401k administrative fees charged based on the Medicare allocation
for their cost center.
Page 7                                                                                   Page 7 of9
Mr. James C. Cox
July 27,2011


Note that the issue here was that the cost for several support staff were charged one hundred percent
to Medicare rather allocated in part to Medicare. Therefore, the last part of the sentence stating "and
should not have been allocated to the contract" is inaccurate and should be changed to read "and
should not have been allocated one hundred percent to the contract".

Leased Vehicles
WPS concurs with the OIG recommendation to reduce its costs by $85,513 related to the personal use
of company furnished leased vehicles. WPS now excludes these costs as unallowable costs.

Meals
WPS does not concur with the OIG recommendation to reduce its costs by $3,703 for meals provided
during a board of directors meeting. Incidental costs associated with board of director meetings are
allowable under FAR 31.205-28 ("the following types ofrecurring costs are allowable: (j) Incidental
costs of directors' and committee meetings ''). WPS concurs with reducing its costs by $51 for the
alcohol served with the meal. WPS will classify any alcohol purchase as "entertainment", which is
not claimed for reimbursement from the government.
WPS does not concur with the OIG recommendation to reduce its costs by $318 for meals provided to
executives. These expenses are indirect costs in the General Administrative cost pool and are
allocated to Medicare in the same manner used for all General Administrative costs in accordance
with FAR 31.203(c):

        The contractor shall accumulate indirect costs by logical cost groupings with due
       consideration of the reasons for incurring such costs. The contractor shall determine each
       grouping so as to permit use of an allocation base that is common to all cost objectives to
       which the grouping is to be allocated. The base selected shall allocate the grouping on the
       basis ofthe benefits accruing to intermediate and final cost objectives. When substantially the
       same results can be achieved through less precise methods, the number and composition of
       cost groupings should be governed by practical considerations and should not unduly
       complicate the allocation.

As indicated in the above referenced FAR provision, it is not appropriate to "cherry-pick" individual
expense items out of an indirect pool for disallowance and then pay only a fraction of the Medicare
specific expenses in the same pool.

WPS agrees to reduce its costs claimed by $48 for the meal costs for which it has no receipts. WPS
will review expense reports for receipts and request a signed affidavit from the traveler for amounts
not supported with a receipt.

Airfare Related to Another Contract
WPS does not concur with the OIG recommendation to reduce its costs by $2,246 for airfare
purchased in connection with a trip that was for the benefit of one of WPS' s other contracts. These
expenses are indirect costs in the Department Overhead cost pool and are allocated to Medicare
contracts based on the departments direct labor costs in accordance with FAR 31.203(c):
Page 8                                                                                   Page 8 of9
Mr. James C. Cox
July 27,2011

        The contractor shall accumulate indirect costs by logical cost groupings with due
       consideration of the reasons for incurring such costs. The contractor shall determine each
       grouping so as to permit use of an allocation base that is common to all cost objectives to
       which the grouping is to be allocated. The base selected shall allocate the grouping on the
       basis ofthe benefits accruing to intermediate and final cost objectives. When substantially the
       same results can be achieved through less precise methods, the number and composition of
       cost groupings should be governed by practical considerations and should not unduly
       complicate the allocation.

As indicated in the above referenced FAR provision, it is not appropriate to "cherry-pick" individual
expense items out of an indirect pool for disallowance and then pay only a fraction of the Medicare
specific expenses in the same pool.

Meals and Beverages
WPS does not concur with the OIG recommendation to reduce its costs by $7,456 for meals and
beverages. The meals and beverages are related to WPS' annual all employee meeting. The company
president and senior executives address the employees on the company's accomplishments over the
previous year, current and future goals, and motivate employees to meet the company's current and
future goals. These costs are allowable under FAR 31.205-13(a), Aggregate costs incurred on
activities designed to improve working conditions, employer-employee relations, employee morale,
and employee performance (less income generated by these activities) are allowable.

Gifts and Gift Cards
WPS does not concur with the OIG recommendation to reduce its costs by $6,296 for gifts and gift
cards. The gift cards were provided under a WPS policy in recognition for years of service in the
Medicare line of business. As these are earned by employees through length of service in the
Medicare program, they are allowable as compensation. See FAR 31.205-6(f)(i) ("Awards are paid or
accrued under an agreement entered into in good faith between the contractor and the employees
before the services are rendered or pursuant to an established plan or policy followed by the
contractor so consistently as to imply, in effect, an agreement to make such payment; and (ii) Basis
for the award is supported.")

The gifts are incidental mementos related to WPS' annual all employee meeting to encourage
attendance and to help employees remember goals. The company president and senior executives
address the employees on the company's accomplishments over the previous year, current and future
goals, and motivate employees to meet the company's current and future goals. These costs are
allowable under FAR 31.205-13(a) ("Aggregate costs incurred on activities designed to improve
working conditions, employer-employee relations, employee morale, and employee performance (less
income generated by these activities) are allowable '')

Membership Dues
WPS concurs with the OIG recommendation to reduce its costs by $2,405 for membership dues to
attend social events. WPS excludes these costs as unallowable costs.
Page 9                                                                            Page 9 of9
Mr. James C. Cox
July 27,2011

Lobbying
WPS concurs with the OIG recommendation to reduce its costs by $1,415 for lobbing costs. WPS
now includes these costs in its lobbying cost center, which are not claimed for reimbursement.

Thank you for the opportunity to comment, please contact me at (608) 301-2639 or e-mail me at
Jared.Adair@wpsic.com if you have any questions.

                                         Sincerely,




Attachments
